FEDERAL TRADE COMMISSION
 OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT TO CONGRESS

   October 1, 2008 – March 31, 2009


              Report No. 41
                                UNITED STATES OF AMERICA
                               FEDERAL TRADE COMMISSION
                                 WASHINGTON, D.C. 20580


Office of Inspector General



                                              April 30, 2009


The Honorable Jon Leibowitz
Chairman
Federal Trade Commission
600 Pennsylvania Avenue, N.W.
Washington, D.C. 20580

Dear Chairman Leibowitz:

        I am pleased to present the attached report that covers the Office of Inspector
General's (OIG) activities for the first half of fiscal year 2009 and is submitted according
to Section 5 of the Inspector General Act of 1978, as amended.

        During the six-month reporting period ending March 31, 2009, the OIG issued an
audit of the FTC’s FY 2008 financial statements and performed an External Peer Review
of the National Labor Relations Board.

        The OIG processed 51 consumer inquiries and complaints/allegations of possible
wrongdoing during the reporting period. We opened one new investigation of possible
misconduct and closed four investigations during the current reporting period. We
referred two of the closed investigations to agency management and one to another
federal law enforcement agency with criminal jurisdiction.         The final closed
investigation resulted in no referral.

       As in the past, management has been responsive in working with the OIG to
implement all proposed recommendations. I appreciate management's support and I look
forward to working with you in our ongoing efforts to promote economy and efficiency
in agency programs.

                                              Sincerely,



                                              John M. Seeba
                                              Inspector General
                                  CONTENTS



INTRODUCTION ______________________________________________________ 1
AUDIT ACTIVITIES____________________________________________________ 1
 Completed Audit ____________________________________________________________ 1
 Audits Planned or In-Progress ________________________________________________ 2
The OIG has initiated work on the following audits:___________________________ 3
FTC Travel Program ____________________________________________________ 3
 Inspection Planned __________________________________________________________ 3
 Other Potential Reviews ______________________________________________________ 3
 Other Office Activities _______________________________________________________ 3
INVESTIGATIVE ACTIVITIES __________________________________________ 4
 Investigative Summary_______________________________________________________ 4
 Investigations Closed ________________________________________________________ 4
 Investigative Concern ________________________________________________________ 5
 Matters Referred for Prosecution ______________________________________________ 5
OTHER ACTIVITIES ___________________________________________________ 6
 Liaison with Other Agencies __________________________________________________ 6
 New Office Initiatives ________________________________________________________ 6
 Assistance to Management ____________________________________________________ 6
 Activities within the Inspector General Community _______________________________ 6
MANAGEMENT CHALLENGES _________________________________________ 7
 Significant Management Decisions _____________________________________________ 8
 Access to Information ________________________________________________________ 8
 Audit Resolution ____________________________________________________________ 8
 Review of Legislation ________________________________________________________ 8
 Contacting the Office of Inspector General ______________________________________ 9
TABLE I: SUMMARY OF INSPECTOR GENERAL REPORTING_____________ 10
REQUIREMENTS_____________________________________________________ 10
TABLE II: INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED
COSTS ______________________________________________________________ 11
TABLE III: INSPECTOR GENERAL ISSUED REPORTS WITH
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE____________ 12
                                  INTRODUCTION

        The Federal Trade Commission (FTC) seeks to ensure that the nation’s markets
are competitive, efficient and free from undue restrictions. The FTC also seeks to
improve the operation of the marketplace by ending unfair and deceptive practices with
emphasis on those practices that might unreasonably restrict or inhibit the free exercise
of informed choice by consumers. The FTC relies on economic analysis to support its
law enforcement efforts and to contribute to the economic policy deliberations of
Congress, the Executive Branch and the public.

        To aid the FTC in accomplishing its consumer protection and antitrust missions,
the Office of Inspector General (OIG) has 5 staff members and a budget of $1,065,700
for fiscal year 2009.

                                AUDIT ACTIVITIES

        During the six month reporting period ending March 31, 2009, the OIG issued an
audit of FTC’s FY 2008 financial statements. The OIG also performed an External Peer
Review of the National Labor Relations Board Office of Inspector General.

                                   Completed Audit

       The OIG completed the following during the first half of FY 2009:

       AR 09-001- Audit of the Federal Trade Commission’s Financial Statements for
                 the Fiscal Year Ending September 30, 2008

       Federal law requires that the FTC obtain an annual independent audit of its
financial statements, which the OIG oversees. We contracted with the independent
public accounting firm of Dembo, Jones, Healy, Pennington & Marshall, P.C. (DJHPM)
under a multiyear contract for which the OIG serves as the Contracting Officer’s
Technical Representative (COTR). The oversight ensured that the audit complied with
generally accepted government auditing standards.

        The audit was performed in accordance with U.S. generally accepted government
auditing standards and OMB audit guidance. For the twelfth consecutive year the FTC
received an unqualified opinion, the highest opinion given by independent auditors. As a
result of the audit of FTC’s financial statements for the years ended September 30, 2008
and 2007, DJHPM found:
         the financial statements were fairly presented, in all material respects, in
            conformity with U.S. generally accepted accounting principles,
         no material weaknesses in internal control over financial reporting (including
            safeguarding of assets) and compliance with laws and regulations,
         no reportable noncompliance with laws and regulations tested.




                                            1
        The complete audit report is located on page 90 of FTC’s FY 2008 Performance
and Accountability Report and can be found on the FTC’s website at
http://www.ftc.gov/opp/gpra/2008parreport.pdf

                            Audits Planned or In-Progress

       The OIG plans the following activities during the second half of FY 2009:

        AR 09-001- Audit of the FTC’s Financial Statements for Fiscal Year 2009

         This audit is required annually under the Accountability of Tax Dollars Act of
2002. The purpose of the audit is to express an opinion on the financial statements of the
Federal Trade Commission for the fiscal year ending September 30, 2009. The audit will
also test the internal controls associated with the FTC’s financial system and assess
compliance with selected laws and regulations. The audited financial statements are
required to be included in the financial section of the agency’s Performance and
Accountability Report to be issued on or before November 15, 2009.

       The size and tight deadlines needed for this audit require that the OIG hire an
independent public accountant to perform this work. The OIG will act as the
Contracting Officer’s Technical Representative (COTR) and provide oversight on the
contract.

       Annual FISMA Review for Fiscal Year 2009

        The Federal Information Security Management Act of 2002 (FISMA) requires an
annual review of federal agency information security programs and practices to
determine their effectiveness. The review includes evaluating the adequacy of the FTC’s
computer security program and practices for its major systems. This year, the review
will again focus on the FTC’s Plan of Action and Milestones to determine the extent to
which the agency has implemented previously agreed upon OIG and other internally
identified recommendations. This will enable the OIG to provide feedback to
management on the results of its efforts to address program weaknesses.

       The complexity of this audit requires us to hire an independent consultant to
perform this work. The OIG will act as the COTR and perform oversight during the
execution of this contract.




                                            2
The OIG has initiated work on the following audits:

           FTC Travel Program

        The objective of this audit will be to determine compliance with applicable travel
regulations. We will determine if internal controls are in place and operating to deter
fraud, waste and abuse. We will also review the FTC travel card program, the electronic
FedTraveler system, and other systems related to the FTC travel system.

           COTR Oversight of Sole Source Contracts

        The audit objective is to determine whether Contracting Officer’s Technical
Representatives are monitoring contractor activities to ensure that they deliver the goods
or services listed in the contract in a timely manner; meet or exceed contract
requirements; and control overall contract costs. The audit started in February 2009 and
will review contracts issued in fiscal years 2007, 2008 and 2009. We expect to complete
this review by the end of September 2009.

                                  Inspection Planned

       Based on an investigation closed during this period, the OIG intends to conduct
an inspection of the current policies and procedures over physical security of information
systems equipment.

                               Other Potential Reviews

        During the year we will also conduct research on the following to determine any
areas for audit:

          Review of the fee collection process for HSR and DNC fees
          Inventory controls over accountable property

                                Other Office Activities

       External Peer Review of the National Labor Relations Board Office of Inspector
       General

        In accordance with auditing standards, external peer reviews are conducted
within the OIG community to evaluate the audit organization’s system of internal quality
control and to ensure that it complies with generally accepted government auditing
standards. The purpose of the peer review is to determine whether the audit organization
has a quality control system in place to provide reasonable assurance that it is following
all applicable auditing standards. During this reporting period, the OIG conducted an
external peer review of the National Labor Relations Board Inspector General Audit
Organization (NLRB OIG) for the year ended September 30, 2008. We conducted our


                                            3
review in accordance with the guidelines established by the Council of the Inspectors
General on Integrity and Efficiency and rendered an unqualified opinion on the NLRB
OIG’s audit quality control system in effect for the year ended September 30, 2008. The
results of our peer review can be found on the NLRB OIG website at
http://www.nlrb.gov/nlrb/about/ig/reports/PeerReviews/

                          INVESTIGATIVE ACTIVITIES

        The Inspector General is authorized by the IG Act to receive and investigate
allegations of employee misconduct as well as fraud, waste and abuse occurring within
FTC programs and operations. Matters of possible wrongdoing are referred to the OIG
in the form of allegations or complaints from a variety of sources, including FTC
employees, other government agencies and the general public. Reported incidents of
possible fraud, waste and abuse can give rise to administrative, civil or criminal
investigations.

                                Investigative Summary

        During this reporting period, the OIG received 51 consumer and other inquiries
and reports of possible wrongdoing. Of the 51 complaints 33 involved issues that fall
under the jurisdiction of FTC program components (identity theft, credit repair, etc.).
These matters were referred to the appropriate FTC component for disposition. Of the
remaining complaints, the OIG opened one new investigation and 8 complaints were
closed with no further OIG action. Five of the remaining complaints involved a
preliminary OIG inquiry that consumed considerable OIG resources but did not result in
a full phase OIG investigation. Two complaints to the OIG were referred to another
federal or state agency with appropriate jurisdiction. The remaining two complaints
were ongoing at the close of this reporting period.

       Following is a summary of the OIG's investigative activities for the six-month
period ending March 31, 2009:

                Cases pending as of 9/30/08                      5
                  PLUS: New Cases                                1
                  LESS: Cases Closed                            (3)
                Cases Pending as of 3/31/09                      3

                                Investigations Closed

        During this reporting period, the OIG closed three investigations. The first
investigation involved missing FTC servers that contained numerous hard drives. The
hard drives contained personally identifiable information (PII) in addition to other non-
public and sensitive information. Based on our investigation, the OIG concluded that the
servers had been taken off site and destroyed. The OIG informed agency management of



                                            4
        the results of the investigation. The OIG intends to conduct further activity in the
area of physical security of PII, sensitive health information and other non-public and
sensitive information handled by the agency.

       The second closed investigation, opened during a prior reporting period, involved
an alleged physical assault of a contractor employee by a member of FTC staff.
Although the FTC employee denied the allegation that she kicked the contractor
employee, our investigation revealed that there was at least one eyewitness to the alleged
physical assault. The OIG completed its investigation and referred the matter to agency
management for appropriate action.

        The third closed investigation, also opened during a prior reporting period,
involved fraudulent consumer redress checks, purportedly issued by the FTC. The
agency’s Bureau of Consumer Protection, which oversees the administration of refunds
to consumers who were victims of deceptive acts or practices or unfair methods of
competition notified the OIG that several counterfeit consumer redress checks were in
circulation. There had been several attempts to negotiate the counterfeit checks against
the FTC’s consumer redress bank accounts. The OIG’s investigation was unsuccessful
in locating the individuals and corporations named on the counterfeit FTC checks. Some
of the checks were issued to legitimate consumer redress recipients in Nigeria, however,
most of the checks made available to the OIG were issued to individuals with no
connection to any FTC enforcement action in which consumer redress had been ordered.
Evidence indicated that the counterfeit checks were created based on data contained on
the legitimate redress checks issued to legitimate redress recipients in Nigeria. Because
the United States Postal Inspection Service had ongoing related investigations, the OIG
referred the matter to that organization for inclusion in its ongoing fraud investigation.

                                 Investigative Concern

         For more than a year, the OIG has received numerous consumer complaints
related to lottery and sweepstakes scams where names of Federal agencies and agency
staff are being used to add an air of legitimacy, and coerce consumer participation. The
OIG continues to work within FTC and with outside law enforcement agencies in
addressing these scams. In addition, the OIG has posted a scam alert on the OIG website
at http://www.ftc.gov/oig/.

                           Matters Referred for Prosecution

      During this reporting period the OIG did not refer any new matters to the
Department of Justice (DOJ) for consideration of potential criminal action.

      A matter referred to DOJ during the previous reporting period remains pending at
DOJ (Office of Public Integrity), with no final action to date.




                                             5
                                OTHER ACTIVITIES

                             Liaison with Other Agencies

       During this reporting period, our investigative staff continues to assist the Legal
Services Corporation (LSC) OIG in the prosecution of a matter with the Assistant United
States Attorney in the Western District of Texas. Our staff member investigated the
matter as an employee of LSC OIG prior to joining the FTC OIG.

        In conducting criminal investigations during the past several years, the OIG has
sought assistance from, and worked jointly with other law enforcement agencies,
including other OIGs, the Federal Bureau of Investigation, the U.S. Postal Inspection
Service, the U.S. Secret Service, the U.S. Marshals Service, the Internal Revenue
Service, U.S. Capitol Police, Federal Protective Service as well as state agencies and
local police departments.

                                 New Office Initiatives

       During this reporting period, the OIG completed implementation of AutoAudit
software. AutoAudit automates key aspects of the audit process including risk
assessment, scheduling, workpapers and reporting. The OIG will use AutoAudit to
increase the efficiency and productivity of the audit process.

        The OIG also implemented IDEA® Data Analysis Software. IDEA is a tool
designed to quickly import, join, analyze, sample, and extract data from almost any
source, including reports printed to a file. IDEA can access and analyze large volumes
of data quickly, permitting greater efficiency and effectiveness in the audit process.

                              Assistance to Management

       The OIG assisted the Deputy Director of Administrative Services by working
with the General Services Administration to obtain a rent refund of $315,000 that had
been outstanding since late 2007.

                 Activities within the Inspector General Community

        The FTC IG is an active participant of the Council of the Inspectors General on
Integrity and Efficiency (CIGIE), a council of Inspectors General that promotes
collaboration on integrity, economy, and efficiency issues that transcend individual
agencies. The IG is a member of the Audit Committee of the CIGIE.

       The FTC Inspector General is also the chair of the audit committee overseeing
the audit of the Department of Defense Inspector General’s financial statements. In this
capacity, the IG along with 2 other senior government officials provide oversight on the




                                            6
DOD IG’s financial statement audit and advise the DoD Inspector General on any
financial issues or concerns.

       The OIG Audit Manager participates regularly in the monthly meeting of the
Financial Statement Audit Network, and was part of the working group that revised the
CIGIE Audit Committee Guide for External Peer Reviews.

        Our IG Counsel participates regularly in the monthly meeting of the Council of
Counsel to the Inspectors General (CCIG), as well as contributes to the legal discourse
within that Council on matters that are germane to the entire IG community. Currently,
the Counsel is participating in a CCIG Working Group that is formulating a standard
Memorandum of Understanding for the provision of shared legal counsel services. The
MOU will be used by Inspectors General who have no independent counsel and who
must utilize the legal services of another counsel who reports directly to an IG. This
collaborative work is intended to streamline the process for obtaining shared legal
counsel services in order that smaller OIGs may comply with new requirements enacted
by the Inspector General Reform Act of 2008.

        The Inspector General and Chief Investigator and Counsel briefed staff members
of the House Committee on Energy and Commerce during this reporting period. The
briefing focused on issues relating to the effectiveness of the FTC and OIG.


                         MANAGEMENT CHALLENGES

       The Reports Consolidation Act of 2000 requires inspectors general to identify the
top management challenges facing their agencies. At the close of FY 2008, FTC OIG
had identified 4 areas that posed significant challenges to agency management, based on
work conducted by the OIG as well as information obtained during informal discussions
with senior leaders within the Commission. The OIG prioritized the issues based on risk
to the Commission: protection of data (both personally identifiable information and
Commission sensitive data), information technology security, human capital issues and
case management.




                                           7
                          Significant Management Decisions

        Section 5(a)(12) of the Inspector General Act requires that if the IG disagrees
with any significant management decision, such disagreement must be reported in the
semiannual report. Further, Section 5(a)(11) of the Act requires that any decision by
management to change its response to a significant resolved audit finding must also be
disclosed in the semiannual report. For this reporting period there were no significant
final management decisions made with which the OIG disagreed, and management did
not revise any earlier decisions on OIG audit recommendations.

                                 Access to Information

        The IG is to be provided with ready access to all agency records, information, or
assistance when conducting an investigation or audit. Section 6(b)(2) of the IG Act
requires the IG to report to the agency head, without delay, if the IG believes that access
to required information, records or assistance has been unreasonably refused, or
otherwise has not been provided. A summary of each report submitted to the agency
head in compliance with Section 6(b)(2) must be provided in the semiannual report in
accordance with Section 5(a)(5) of the Act. During this reporting period, the OIG did not
encounter any problems in obtaining assistance or access to agency records.
Consequently, no report was issued by the IG to the agency head in accordance with
Section 6(b)(2) of the IG Act.

                                    Audit Resolution

       As of the end of this reporting period, all OIG audit recommendations for reports
issued in prior periods have been resolved. That is, management and the OIG have
reached agreement on what actions need to be taken.

                                 Review of Legislation

       Section 4(a)(2) of the IG Act authorizes the IG to review and comment on
proposed legislation or regulations relating to the agency or, upon request, affecting the
operations of the OIG. During this reporting period, the OIG reviewed no legislation.




                                            8
                      Contacting the Office of Inspector General

       Employees and the public are encouraged to contact the OIG regarding any
incidents of possible fraud, waste, or abuse occurring within FTC programs and
operations. The OIG telephone number is (202) 326-2800. A confidential or anonymous
message can be left 24 hours a day. Complaints or allegations of fraud, waste or abuse
can also be emailed directly to OIG@ftc.gov. OIG mail should be addressed to:

                               Federal Trade Commission
                               Office of Inspector General
                                     Room NJ-1110
                             600 Pennsylvania Avenue, NW
                                Washington, D.C. 20580

        OIG reports can be accessed via the internet at: www.ftc.gov/oig. A visitor to the
OIG home page can download recent (1996-2007) OIG semiannual reports to Congress,
the FY 1998 - 2007 financial statement audits, and other program and performance
audits issued beginning in FY 1999. A list of audit reports issued prior to FY 1999 can
also be ordered via an e-mail link to the OIG. In addition to this information resource
about the OIG, visitors are also provided a link to other federal organizations and Office
of Inspectors General.




                                            9
        TABLE I: SUMMARY OF INSPECTOR GENERAL REPORTING
                         REQUIREMENTS


IG ACT Reference Reporting Requirement                                        Page(s)

Section 4(a)(2)    Review of legislation and regulations                       8

Section 5(a)(l)    Significant problems, abuses and deficiencies               n/a

Section 5(a)(2)    Recommendations with respect to significant
                   problems, abuses and deficiencies                           n/a

Section 5(a)(3)    Prior significant recommendations on which
                   corrective actions have not been made                       n/a

Section 5(a)(4)    Matters referred to prosecutive authorities                 5

Section 5(a)(5)    Summary of instances where information was refused          8

Section 5(a)(6)    List of audit reports by subject matter, showing dollar
                   value of questioned costs and funds put to better use       11-12

Section 5(a)(7)    Summary of each particularly significant report             1-2

Section 5(a)(8)    Statistical tables showing number of reports and
                   dollar value of questioned costs                            11

Section 5(a)(9)    Statistical tables showing number of reports and dollar
                   value of recommendations that funds be put to better use    12

Section 5(a)(10)   Summary of each audit issued before this reporting
                   period for which no management decision was made
                   by the end of the reporting period                          n/a

Section 5(a)(11)   Significant revised management decisions                    8

Section 5(a)(12)   Significant management decisions with which
                   the inspector general disagrees                             8




                                        10
 TABLE II: INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED
                            COSTS


                                                       _____Dollar Value_______
                                                       Questioned Unsupported
                                              Number   ___Costs        Costs___

A. For which no management decision
   has been made by the commencement
   of the reporting period                        0         0            (0)

B. Which were issued during the
   reporting period                               0         0            (0)

   Subtotals (A + B)                              0         0            (0)

C. For which a management decision
   was made during the reporting period           0         0            (0)

  (i) dollar value of disallowed costs            0         0            (0)

  (ii) dollar value of cost not disallowed        0         0            (0)

D. For which no management decision was
   made by the end of the reporting period        0         0            (0)

  Reports for which no management
  decision was made within six months
  of issuance                                     0         0            (0)




                                             11
         TABLE III: INSPECTOR GENERAL ISSUED REPORTS WITH
        RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                               Number       Dollar
Value


A. For which no management decision has been
   made by the commencement of the reporting
   period                                         0         0

B. Which were issued during this reporting
   period                                         0         0

C. For which a management decision was
   made during the reporting period               0         0

  (i) dollar value of recommendations
      that were agreed to by management           0         0

     - based on proposed management
       action                                     0         0
     - based on proposed legislative
       action                                     0         0

  (ii) dollar value of recommendations
       that were not agreed to by
       management                                 0         0

D. For which no management decision has been
   made by the end of the reporting period        0         0

   Reports for which no management decision
   was made within six months of issuance         0         0




                                         12
